2311 Douglas Street
Omaha, Nebraska 68102-1214

N.,.,,

OCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-543
JEFFREY WILLS LUSK,
Petitioner,
v.
CROWN POINTE CARE CENTER et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2145 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

&
Notary Public

eseit

at.ixaat-4
Affiant

aue,
39102

